                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-04030008
                                                                                11          Page 1 of 1



         The National Science Foundation's (NSF) Designated Agency Ethics official' (DMO) received
         information from a complainant2that a program director (~ubject)~ who was at NSF in a
         temporary position was in charge of a panel and placed a colleague4from his home institution on
         the panel which reviewed a proposal5with Co-PISfrom that same institution. Since there was a
         possible criminal violation of 18 U.S.C. § 208, the DAEO notified OIG.

         OIG established that the subject and the colleague properly avoided discussion of the particular
         proposal, but may have been involved in the subsequent discussions of the relative rankings of all
         of the proposals. OIG interviewed the complainant, who said he had not been present during the
         discussions, but two panel members had expressed to him their discomfort with the way the
         panel was handled. The complainant said that another proposal from the panel from the subject's
         home institution was later selected for h d i n g and, as a result of concerns about the subject's
         conflict, the division arranged for both proposals to be evaluated by ad hoc reviews.

         OIG contacted the two panel members identified by the complainant to discuss the panel
         proceedings and their concerns about the placement of certain proposals in the "fund" column
         during the panel. Both panelists stated that there was no apparent mishandling of conflicts
         during the panel meeting.

         Based on the action taken by the division, OIG concluded that no further action was required.
         OIG informed the subject that both NSF and OIG take allegations of conflicts of interests very
         seriously, and encouraged him to be more diligent in the future regarding avoidance of conflicts
         during panel meetings and funding decisions; he said he would do so. Accordingly, this case is
         closed.




          I
              redacted
         2
              redacted
              redacted
              redacted
              redacted



NSF OIG Form 2 (1 1/02)
